Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401


Richard W. Moore
Inspector General



                                                         November 15, 2013


The Honorable Neil G. McBride
Tennessee Valley Authority Board of Directors
c/o Legal Aid Society of Middle Tennessee
 and the Cumberlands
226B Broadway
Oak Ridge, Tennessee 37830

Dear Mr. McBride:

2013-14942 – MONITORING OF ERNST & YOUNG LLP'S AUDIT OF THE TENNESSEE VALLEY
AUTHORITY FISCAL YEAR 2013 FINANCIAL STATEMENTS

The Tennessee Valley Authority (TVA) contracted with the independent public accounting firm of
Ernst & Young LLP to audit the consolidated balance sheet as of September 30, 2013, and the related
consolidated statements of operations, comprehensive income (loss), changes in proprietary capital,
and cash flows for the year then ended. In addition, the contract called for the review of TVA's fiscal
year 2013 interim financial information filed on Form 10-Q with the Securities and Exchange
Commission. The contract required the work be performed in accordance with generally accepted
Government Auditing Standards.

Under the Inspector General Act, the Inspector General (IG) is responsible for taking appropriate steps
to assure that any work performed by nonfederal auditors, including Ernst &Young, complies with
generally accepted government auditing standards. The Chief Financial Officers Act also places
responsibilities on the IG regarding TVA's annual financial statement audit. In keeping with these
statutory responsibilities, my office reviewed Ernst &Young's reports and related audit documentation,
interviewed its representatives, and performed such other procedures as deemed appropriate in the
circumstances to provide reasonable assurance the work was performed in accordance with generally
accepted Government Auditing Standards.

The objective of our review was not intended to enable us to express, and we do not express, an
opinion on TVA's financial statements or on management's conclusions about the effectiveness of its
system of internal control. Ernst &Young is responsible for the auditor's reports dated November 15,
2013, and the conclusions expressed in those reports. However, our review disclosed no instances
where Ernst &Young did not comply, in all material respects, with generally accepted Government
Auditing Standards.

We performed this attestation engagement in accordance with generally accepted Government Auditing
Standards.

                                                         Very truly yours,


                                                         Richard W. Moore

cc: See page 2
The Honorable Neil G. McBride
Page 2
November 15, 2013



cc: The Honorable V. Lynn Evans
    Tennessee Valley Authority Board of Directors
    V. Lynn Evans, CPA
    119 S. Main Street, Suite 500
    Memphis, Tennessee 38103

    Mr. Randy Gregson, Partner
    Ernst & Young LLP
    Suite 1000
    55 Ivan Allen Jr. Boulevard
    Atlanta, Georgia 30308

    The Honorable Joe H. Ritch
    Tennessee Valley Authority Board of Directors
    Sirote & Permutt, PC
    305 Church Street, Suite 800
    Huntsville, Alabama 35801
